\1

f/

filed

MAR 1 9 2020
££S2§oftkeclerk

No.

3fn tfje Supreme Court of tfje fHntteb States:
^MICHAEL BOUCHARD,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit
PETITION FOR A WRIT OF CERTIORARI

Michael G. Bouchard
ProSe Petitioner

595 New Loudon Road, #201
Latham, New York 12110
(518) 542-5450
bouchard@nycap.rr.com

RECEIVED
MAR 2 3 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

f

o
1

QUESTIONS PRESENTED
I. Under the “false statements statute”, 18 U.S.C.
§1014, it is a crime to knowingly make “any false
' statement or report ... for the purpose of
influencing in any way the action” of the
enumerated entities in the statute. In 2009
Congress amended §1014 to cover “mortgage
lending businesses”. The question presented is
whether the United States Court of Appeals for
the Second Circuit contravened this Court’s
precedents by denying Michael Bouchard’s Motion
for a Certificate of Appealability (COA Motion)
and Motion for Panel Reconsideration &
Reconsideration en banc for Mr. Bouchard to
obtain review of his claim that the indictment and
the manner in which it was prosecuted violated
the Constitution’s Ex Post Facto Clause by
retroactively applying the 2009 amended version
of §1014 to pre-amendment alleged conduct?
II. Under Strickland v. Washington, 466 U.S. 668
(1984), this Court held that the Sixth Amendment
guarantees criminal defendants the right to the
effective assistance of counsel for their defense.
The question presented is whether the United
States Court of Appeals for the Second Circuit
contravened this Court’s precedents and Circuit
Courts’ precedents by denying Michael Bouchard’s
Motion for a Certificate of Appealability and
Motion
for
Panel
Reconsideration
&
Reconsideration en banc for Mr. Bouchard to

\ QBvmo^n

!

m z s flAM

!:

i;

J

->0

•_ r.n..jrf-suo;^ animus

f

\1

11

QUESTIONS PRESENTED
(continued)
obtain review of his claim that he was denied
effective assistance of counsel, and, Mr.
Bouchard’s claim that the cumulative effect of the
27 prejudicial errors by defense counsel also
denied him effective assistance of counsel?
III. Michael Bouchard filed a motion with the
district court for an evidentiary hearing regarding
a Brady, Giglio, Jencks claim raised in his §2255
proceeding. The government did not oppose the
motion. But, the district court ignored the motion.
Mr. Bouchard then moved the Second Circuit for a
Writ of Mandamus ordering the district court to
schedule the hearing. The district court then
abruptly denied Mr. Bouchard’s §2255 petition,
discovery motion, and motion for an evidentiary
hearing. The question presented is whether the
United States Court of Appeals for the Second
Circuit contravened this Court’s precedents and
Circuit Courts’ precedents by denying Michael
Bouchard’s Motion for a Certificate of
Appealability
and
Motion
for
Panel
Reconsideration & Reconsideration en banc for
Mr. Bouchard to obtain review of his claims that
he was entitled to an evidentiary hearing
regarding the Brady, Giglio, Jencks claim, and,
that the district court usurped the authority of the
Second Circuit to decide the necessity of an
evidentiary hearing on a constitutional issue?

r

C

m
PROCEEDINGS IN FEDERAL APPELLATE
COURTS THAT ARE DIRECTLY RELATED
TO THE CASE IN THIS COURT
Court In Question^ U.S. Court of Appeals for the
Second Circuit, Docket# 19-1913
Caption-' Michael G. Bouchard, PetitionerAppellant v. United States of America,
Respon dent Appellee
Date of Entry of the Judgment: 11-14-19 and
12-27-19
Court In Question: U.S. Court of Appeals for the
Second Circuit, Docket# 19-1037
Caption: In Re Michael G. Bouchard, Petitioner
Date of Entry of the Judgment: 7-8-19
Court In Question: U.S. Court of Appeals for the
Second Circuit, Docket# 14-9008-am
Caption: In re Gaspar Castillo, Attorney.
Date of Entry of the Judgment: 1-18-18
Court In Question: U.S. Court of Appeals for the
Second Circuit, Docket# 14-4156-cr
Caption: United States ofAmerica, Appellee
v. Michael Bouchard, Appellant
Date of Entry of the Judgment: 7-7-16

)

IV

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

1

TABLE OF AUTHORITIES

v

DECISIONS AND OPINIONS BELOW

1

JURISDICTION

1

PROVISIONS INVOLVED

1

STATEMENT

2

REASONS FOR GRANTING THE PETITION...8
I. THE EX POST FACTO VIOLATIONS
MERIT THIS COURT’S REVIEW.....

8

A. The Unconstitutional Indictment

9

B. The Unconstitutional Trial Evidence ... 11
C. Michael Bouchard has not procedurally
defaulted this Ex Post Facto Claim......14

(

V

TABLE OF CONTENTS
(continued)
II. THE EXTRAORDINARY NUMBER
OF DEFENSE COUNSEL’S ERRORS
MERITS THIS COURT’S REVIEW ...

18

A. Defense Counsel’s Disciplinary History. 18
B. Defense Counsel’s Errors

19

C. The Decisions Below

29

D. The Law

30

E. The Fremont Investment
& Loan Closing...............

32

F. The Cumulative Effect of
Defense Counsel’s 27 errors

36

III. THE DENIAL OF THE §2255
EVIDENTIARY HEARING
MERITS THIS COURT’S REVIEW

37

A. The Recanted Trial Testimony

37

B. The Hindered §2255 Discovery

40

C. The Mandamus Petition

40

CONCLUSION

44

VI

TABLE OF CONTENTS
(continued)
APPENDIX A: Decision of the United States
Court of Appeals for the Second Circuit
(November 14, 2019)...........................................

la

APPENDIX
Decision of the United States
Court of Appeals for the Second Circuit
(December 27, 2019)............................................

3a

APPENDIX C- Decision of the United States
Court of Appeals for the Second Circuit in a
related case regarding a Petition for a Writ
of Mandamus
(July 8, 2019)........................................................

5a

APPENDIX D: Memorandum Decision and
Order of the United States District Court for
the Northern District of New York
(May 6, 2019).......................................................

7a

APPENDIX E: Decision of the United States
Court of Appeals for the Second Circuit in a
related case regarding the disclosure of the
federal disciplinary record for Petitioner’s
defense counsel, Gaspar Castillo
(January 19, 2018).............................................. 31a
APPENDIX
Decision of the United States
Court of Appeals for the Second Circuit
(July 7, 2016)....................................................... 40a

I.

Vll

TABLE OF CONTENTS
(continued)

APPENDIX G: Memorandum Decision and
Order of the United States District Court for
the Northern District of New York
(February 10, 2014)........................................ . 67a
APPENDIX H: Statutory Provisions

18 U.S.C.
18 U.S.C.
18 U.S.C.
18 U.S.C.

§
§
§
§

2.........
20 ........
1014....
1344 ....

148a
148a
149a
150a
152a

APPENDIX P Constitutional Provisions

153a

Ex Post Facto Clause......

153a

Fifth Amendment............

154a

Sixth Amendment...........

155a

APPENDIX J: Relevant excerpts from
print-out of pre-indictment research
conducted by Michael G. Bouchard
regarding lender, Fremont Investment & Loan
(Internet Source- FDIC Web-Site)
156a

vrn
TABLE OF AUTHORITIES
Page(s)
CASES
Aron v. United States,
291 F.3d 708 (llth Cir. 2002)
Bousley v. United States,
523 U.S. 614 (1998)...
Brady v. Maryland,
373 U.S. 83 (1963)

42
14, 18
passim

Buck v. Davis,
137 S. Ct. 759 (2017)

8

Calder v. Bull,
3 Dali 386, 1 L Ed 648 (1798)

9

Campbell v. United States,
364 F.3d 727 (6th Cir. 2004)

37

Dugas v. Coplan,
428 F.3d 317 (1st Cir. 2005)

36

Evans v. Sec’y, Fla. Dep’t of Corr.,
699 F.3d 1249 (llth Cir. 2012).....

36

Fisher v. Angelone,
163 F.3d 835 (4th Cir. 1998)

37

IX

TABLE OF AUTHORITIES
(continued)
Page(s)
Francis v. Franklin,
471 U.S. 307 (1985).
Giglio v. United Sta tes,
405 U.S. 150 (1972).
Gonzales v. Tafoya,
515 F.3d 1097 (10th Cir. 2008)

22, 23

passim
36

Hinton v. Alabama,
134 S. Ct. 1081 (2014)

24

In Re Winshop,
397 U.S. 358 (1970)

23

Kubat v. Thieret,
867 F.2d 351 (7th Cir. 1989)

36

Lindstadt v. Keane,
239 F.3d 191 (2d Cir. 2001)

36

Loughrin v. United States,
.573 U.S. 351 (2014).....

13

McNeil v. Cuyler,
782 F.2d 443 (3d Cir. 1986)

36

X

TABLE OF AUTHORITIES
(continued)
Page(s)
Moore v. Johnson,
194 F.3d 586 (5th Cir. 1999)

36

Murray v. Carrier,
477 U.S. 478 (1986)

14, 18

Napue v. Illinois,
360 U.S. 264 (1959)

41

Sanders v. Ryder,
342 F.3d 991 (9th Cir. 2003)

36

Schlup v. Delo,
513 U.S. 298 (1995)
Strickland v. Washington,
466 U.S. 668 (1984)....

14, 15, 18

passim

Townsend v. Sain,
372 U.S. 293 (1963)

42

United States v. Agurs,
427 U.S. 97 (1976)..

31

United States v. Barboa,
111 F.2d 1420 (10th Cir. 1985)

43

XI

TABLE OF AUTHORITIES
(continued)
Page(s)
United States v. Baynes,
622 F.2d 66 (3d Cir. 1980)
United States v. Bouchard,
828 F.3d 116 (2d Cir. 2016)

43
passim

United States v. Cronic,
466 U.S. 648 (1984).

26, 27

United States v. Gallerani,
68 F.3d 611 (2d Cir. 1995)

22, 23

United States v. Hamilton,
334 F.3d 170 (2d Cir. 2003)

13

United States v. Kerley,
784 F.3d 327 (6th Cir. 2015)

7

United States v. Magini,
973 F.2d 261 (4th Cir. 1992)

42

United States v. Osorio Estrada,
751 F.2d 128 (2d Cir. 1984)..,

22, 23

XU

TABLE OF AUTHORITIES
(continued)
Page(s)

United States v. Rooney,

37 F.3d 847 (2d Cir. 1994)

13

United States v. Sabatino,
485 F.2d 540 (2d Cir. 1973)

11, 13, 32

United States v. Stofsky,
527 F.2d 237 (2d Cir. 1975)

41

United States v. Scotti,
47 F.3d 1237 (2d Cir. 1995)

22

United States v. Thai,
29 F.3d 785 (2d Cir. 1994)

25

United States v. Valenzuela-Bernal,
458 U. S. 858 (1982)....................

31

United States v. Wallach,
935 F.2d 445 (2d Cir. 1991)

41

Wainwright v. Lockhart,
80 F.3d 1226 (8th Cir. 1996)

37

Weaver v. Graham,
450 U.S. 24 (1981)

9

xrn

TABLE OF AUTHORITIES
(continued)
Page(s)
STATUTES
18U.S.C. §2..........................................

22, 23

18U.S.C. §20.......................................

9

18U.S.C. §1014...................................

passim

18 U.S.C. §3500(b) “The Jencks Act”..

passim

28 U.S.C. §1254 ...................................

1

28 U.S.C. §2255 ...................................

passim

Fraud Enforcement and Recovery Act
(“FERA”) of 2009, 123 Stat. 1617......

4

CONSTITUTIONAL PROVISIONS
U.S. Const, art I, section 9, clause 3

passim

U.S. Const, amend. V .......................

passim

U.S. Const, amend. VI.....................

passim

1

DECISIONS AND OPINIONS BELOW
The Second Circuit’s denial of the certificate of
appealability motion is at App.la. The denial of
the motion for panel reconsideration and for panel
reconsideration en bands at App.3a.
The Second Circuit’s denial of the Petition for a
Writ of Mandamus in a related case is at App.5a.
The Memorandum-Decision and Order of the
U.S. District Court for the Northern District of
New York denying the Petitioner’s §2255 motions
is at App.7a.
The Second Circuit’s disclosure order releasing
the disciplinary record for defense counsel Gaspar
Castillo is at App.31a.
The Second Circuit’s decision on direct appeal is
reported at 828 F.3d 116; App.40a.
The Memorandum Decision and Order of the
District Court denying motions for a judgment of
acquittal and a new trial is at App.67a.
JURISDICTION
The Second Circuit denied the COA motion on
11-14-19 and denied the motion for panel
reconsideration, and, reconsideration en banc
on 12-27-19. Title 28 U.S.C. §1254 confers
jurisdiction.
PROVISIONS INVOLVED
Relevant statutory provisions are at Ap.l48a152a. Relevant constitutional provisions are at
153a-155a.

2

STATEMENT
Michael Bouchard was convicted on a theory
that he conspired to submit false statements to
“mortgage lenders” which fraudulently concealed
disbursements of mortgage funds at closings. The
government claimed that Bouchard and 2 of his
paralegals assisted 2 schemes by submitting false
HUD-1 Settlement forms to mortgage lenders.1
The Team Title Scheme was run by cooperating
witnesses Francis Thomas Disonell and Matt
Kupic. Their buyers purchased properties at “an
inflated sales price” with a supposed “repair
rebate”. At closings, the office of the lender’s
attorney wrote checks to buyers for repairs and to
Disonell & Kupic for “consulting fees”. Bouchard’s
office closed a small fraction of these loans.
The PB Enterprises Scheme was run by
cooperating witnesses Kevin O’Connell & Michael
Crowley. They signed contracts for properties at
the “seller’s price”, then had buyers sign contracts
at an inflated “buyer’s price”. Bouchard’s
paralegal, Malissa Edgerton, prepared a HUD
statement for the “buyer’s price” as provided by
lenders. The buyers’ mortgage broker, Nickole
Riley Sutliff, deceived Malissa by stating that the
closings involved repair credits — and then asked
A HUD-1 form is a Housing and Urban Development
settlement form used in closing a property sale that details
the costs & fees associated with a mortgage loan. See United
States v. Kerley, 784 F.3d 327, 333 n.2 (6th Cir. 2015).

3

Malissa to change the purchase price on page 1 of
the HUD to the lower “seller’s price” so the sellers
would have a “courtesy HUD” for capital gains tax
purposes.2 Malissa wrote checks to buyers for
repairs. O’Connell & Crowley deposited the checks
and then wrote checks to themselves and the
buyers. Bouchard’s office closed a small fraction of
these loans.
On 11-30-12 after a 12 day trial, Bouchard was
convicted of conspiracy to submit false statements
to mortgage lenders (Count l), bank fraud (Counts
7 and 19), submitting a false statement to a
mortgage lender (Count 24), and acquitted on the
other 20 bank fraud counts. Bouchard was
sentenced to 48 months imprisonment. The
Second Circuit reversed the convictions on Counts
7, 19 and 24, affirmed the conviction on Count 1,
and remanded the case for resentencing. United
States v. Bouchard, 828 F.3d 116 (2d Cir. 2016).
App.40a. Bouchard was again sentenced to 48
months imprisonment.
Bouchard’s §2255 Petition, discovery motion
and motion for an evidentiary hearing were
2 Malissa testified at trial that: l) she believed Sutliff that
the change to page 1 of the HUD was for a repair credit; 2)
she did not think she was doing anything wrong when she
made the change to the HUD; and 3) when she changed the
first page of the HUD she was not trying to hide anything
from the lenders. (Dkt. 51, 224-226; Dkt. 52, 3-4). The
innocent changes made by Malissa to the first page of the
HUD were labelled by the government as “double-HUDs”.

4

denied by the district court. The Second Circuit
denied the COA motion and a motion for panel
reconsideration and reconsideration en banc.
1. The Ex Post Facto Violations.
The grand jury documentary “evidence”, grand
jury testimony of an IRS Agent, the indictment,
and the prosecution of the case all violated the
Constitution’s Ex Post Facto Clause. How so? The
government’s case focused almost exclusively on
alleged conduct involving “mortgage lenders”, and
under the law it was not a crime to submit any
statement - true or false — to a mortgage lender.
Count 1 charged a conspiracy to submit false
statements to mortgage lenders. Under the “false
statements statute”, 18 U.S.C. §1014, it is a crime
to knowingly make “any false statement or report
... for the purpose of influencing in any way the
action” of the enumerated entities in the statute.
But, mortgage lenders were not covered entities
under the statute in 2002-2007, the time period
encompassed by the indictment. Congress later
amended §1014 in 2009 to cover “mortgage
lending businesses”. See Fraud Enforcement and
Recovery Act (“FERA”) of 2009, 123 Stat. 1617.
The government’s case was weak. The “evidence”
was overwhelmingly related to “mortgage
lenders”, and should have been inadmissible
because it was irrelevant to proving violations of
the U.S. Code pre-amendment.

5

The trial jury did not hear strong exculpatory
evidence. One of Bouchard’s paralegals, Laurie
Hinds,3 testified at the grand jury. Laurie
confirmed that she and Bouchard had no
knowledge about what the government labelled as
a “double-HUD” scheme:
Q[;] Were there a number of closings that
you became aware of where there were more
than one HUD for that closing at the
Bouchard law firm?
A[:] That's what you stated but I didn't - I
haven't seen any. So -- you said there were
but I don't know of any. You didn't show me
any so I don't have any knowledge, sorry.
(Dkt. 95-1, EX. 16)
3 After defending Bouchard in her grand jury testimony, the
innocent Laurie Hinds was targeted by the government. On
July 7, 2011, AUSA Thomas Capezza informed IRS Agent
Thomas Fattorusso via email about a telephone call with
Laurie: “Tom, FYI, I just received a telephone call from
Laurie Hinds. I told her that she was a target of the grand
jury, she may be indicted, and if she obtains an attorney,
she should have that attorney contact us within the next
week’. (Dkt. 95-1, EX. 17). Laurie later pled guilty to the
government’s “conspiracy”, but explained to another
employee of Bouchard’s firm that “ the Feds took her into a
room and said if you pleaded guilty there would be no jail
time so she pleaded guiltf and “I have two small children, I
can’t go to jail’. (Id., EX. 18).

6

Q[;] So it's your testimony that checks can be
cut in a way that is inconsistent, with two
separate HUDs, and Mr. Bouchard, that can
go unnoticed by Mr. Bouchard?
A[:] Yes.4 It shouldn't be, but yes. (Id.)
Q[-] And that HUD is an accounting?
AD] But they [the lenders] receive those
checks so the bank is aware of what was
disbursed. (Id.)
Laurie also told the government in a 2007
interview that “the banks know about the
disbursements made at all closings because the
Firm sends copies of the disbursement checks to
the bank after the closing...” (Id. EX. 14).
Defense counsel failed to cross-examine Laurie
at trial. The jury never heard that: i) Laurie and
Bouchard knew nothing about the “double-HUD”
documents; 2) The lenders were not defrauded
because they received copies of checks.
2. Defense counsel committed multiple errors.
The performance of Bouchard’s defense counsel,
Gaspar Castillo, was so feeble that it amounted to
no representation for Bouchard. The §2255 Motion
details 27 prejudicial errors.
4 Due to Bouchard’s extremely busy law practice, the hidden
agenda of the fraudsters went unnoticed. The fraudsters’
transactions comprised less than just 1.4% of all legal
services rendered by The Bouchard Law Firm for the time
period of the indictment. (Dkt. 54 at 43, 46, 56, 60).

7

3. The district court’s denial of an evidentiary
hearing interfered with the Second Circuit.
Before trial, the government promised “open file
discovery”.5
After
trial
the
government
inadvertently divulged the existence of a
suppressed tape recording of a key trial witness
Kevin O’Connell of PB Enterprises.6 Bouchard’s
§2255 papers showed that the government
breached its discovery promise and violated
Brady/Giglio/Jencks7 by suppressing handwritten
5 At a July 2, 2013 post-trial evidentiary hearing, Prosecutor
Olmsted testified: “We had -- I believe open file discovery, I
mean as I recall it." (Dkt. 87! 61-62).
6 Prosecutor Olmsted testified that in one of his pre-trial
meetings with O’Connell, a tape was played wherein
O’Connell previously talked about manipulating the HUDs,
but the tape did not refresh O’Connell’s recollection about
any interactions with Bouchard. (Id.; 56).
7 "[T]he suppression by the prosecution of evidence favorable
to an accused ... violates due process where the evidence is
material to either guilt or to punishment..." Brady v.
Maryland. 373 U.S. 83, 87 (1963). The government also has
an obligation to disclose evidence that may be used to
impeach a prospective witness, when the reliability of that
witness could be determinative of the defendant's guilt or
innocence. Giglio v. United States. 405 U.S. 150 (1972).
Under “The Jencks Act”, a defendant in a federal criminal
trial is entitled to receive from the government any written
statement in the government’s possession which relates to
the subject matter as to which a government witness has
testified. 18 U.S.C. §3500(b).

8

witness interview notes, key typewritten
interviews, and tape recordings of witnesses.
The district court ignored a motion for an
evidentiary hearing on the suppressed tape.
Bouchard filed a Petition for a Writ of Mandamus
with the Second Circuit seeking an order
compelling the district court to schedule the
hearing. The district court then hurriedly denied
all of Bouchard’s §2255 motions.
REASONS FOR GRANTING THE PETITION
Three questions merit review. First, the
indictment and proceedings violated the Ex Post
Facto
Clause.
Second,
defense counsel’s
performance denied Bouchard the Sixth
Amendment right to effective assistance of
counsel. Third, the district court’s denial of
Bouchard’s §2255 motions was an abuse of
discretion and it usurped the Second Circuit’s
authority to decide a constitutional issue.
Bouchard was entitled to the issuance of a
Certificate of Appealability, because at that stage,
he showed that “jurists of reason could disagree
with the district court's resolution of his
constitutional claims or that jurists could conclude
the issues presented are adequate to deserve
encouragement to proceed further.” Buck v. Davis,
137 S. Ct. 759, 773 (2017).

9
I. THE EX POST FACTO VIOLATIONS MERIT
THIS COURT’S REVIEW
The Constitution forbids Congress from passing
"Ex Post Facto" laws. U.S. Const, art I, section 9,
clause 3. The Ex Post Facto prohibition forbids
Congress to enact any law “which imposes a
punishment for an act which was not punishable
at the time it was committed; or imposes
additional punishment to that then prescribed.”
Weaver v. Graham, 450 U.S. 24, 28 (1981); Calder
v. Bull, 3 Dali 386, 390, 1 L Ed 648 (1798). “Two
critical elements must be present for a criminal or
penal law to be ex post facto: it must be
retrospective, that is, it must apply to events
occurring before its enactment, and it must
disadvantage the offender affected by it.” Weaver,
450 U.S. at 29. Both elements exist here: i) the
false statements statute, 18 U.S.C. §1014 (as
amended in 2009 to extend to a “mortgage lending
business”) along with the definition of a “financial
institution” in 18 U.S.C. §20 (as amended in 2009
to extend to a “mortgage lending business”), were
applied retrospectively to alleged events in 20022007; and 2) Bouchard was disadvantaged by it.
A. The Unconstitutional Indictment.
Count 1 violated the Ex Post Facto Clause by
alleging that Bouchard conspired with PB
Enterprises and Team Title to defraud mortgage
lenders in all of their real estate closings (Dkt. 11
7, 10). The “Manner and Means of the Conspiracy”
alleged that ALL closings were part of the
conspiracy:

10
“It was part of the conspiracy that, in
connection with the mortgage loans
described above and listed in Counts 2
through 24 below, the defendant MICHAEL
G. BOUCHARD agreed with others to obtain
mortgage loan proceeds based upon the
mortgage loan applications that were
submitted to the victim mortgage lenders,
and to cause the victim mortgage lenders to
deposit the mortgage loan proceeds into the
Bouchard Firm’s escrow account.” (Id., 10).
The language “the mortgage loans described
above” refers to ALL of the closings as depicted on
2 fake charts created by IRS Agent Thomas
Fattorusso and presented as “evidence” to the
grand jury. (2d Cir. Case 19-1913, Dkt. 11, EX. RS). The Government paraded ALL of these
closings involving numerous non-bank mortgage
lenders in front of the grand jury to procure an
indictment that violated the Ex Post Facto Clause.
Agent Fattorusso also lied twice to the grand jury
while testifying on 6-22-11 and 7-27-11 by
describing the non-bank lender BNC Mortgage,
Inc. as a “bank”. (Id. EX. T*U). The grand jury did
not know that Agent Fattorusso’s fake charts and
testimony were false, so Bouchard was indicted
for alleged conduct that was legal.
Based on the fake charts, the indictment
incorporated into Count 1 ALL of the closings and
unconstitutionally criminalized alleged conduct
related to numerous non-bank mortgage lenders,
such as BNC Mortgage, Inc., Argent Mortgage

11

Company LLC, Citimortgage, Inc., Option One
Mortgage Corporation, First Franklin Financial
Corp., The CIT Group/Consumer Finance, Inc.,
Homestar Mortgage Services, SIB Mortgage
Corp., and America's Wholesale Lender. First, the
pre-amendment false statements statute required
the government to prove that the false statement
was made to a bank and that the defendant knows
that it is a bank to which he has made the false
statement. United States v. Sabatino, 485 F.2d
540, 544 (2d Cir. 1973); Bouchard, 828 F.3d at
127. Second, the government retroactively applied
the later enacted 2009 law to indict Bouchard for
a conspiracy to submit false statements to
numerous “mortgage lending businesses”.
Counts 2-16 and 18-24 also alleged conduct
involving mortgage lenders that was legal.
B. The Unconstitutional Trial Evidence.
1. The CIT Group/Consumer Finance. Inc, closing.
This closing involved a mortgage lender that was
not a bank under §1014 pre-amendment. Exhibit
1.10 and testimony were used to prove conspiracy.
Disonell testified about a handwritten list he used
to request checks from Laurie Hinds. (Dkt. 48;
203-210). The court stressed that testimony in the
charging conference. (Dkt. 116; 3).
Petrified of the threat of going to jail with 2
small children at home, Laurie Hinds followed the
government’s fake story line and testified that she
obtained approval from Bouchard to disburse
checks consistent with a list provided to her by

12

Disonell. (Dkt. 50; 113-114). Sadly, Laurie’s
testimony was false and is contradicted by a prior
2007 government interview wherein she said that
she “never checked with Bouchard when the
disbursement checks were cut differently than
stated on the HUD” (Dkt. 95*1; EX. 14) and a 2011
government interview wherein Laurie said that
she “does not think that Bouchard would not
knowingly do anything wrong”, and that “no
closings were done if something look wrong”. (Id.;
EX. 15). Castillo had the interviews, but neglected
to properly cross-examine Laurie with her
inconsistencies.
AUSA Olmsted misled the jury in summations
by arguing that this closing proved a
conspiratorial agreement. (Dkt. 116; 8-ll).
The district court erred by ruling in its post­
trial decision that the testimony for this closing
“was sufficient evidence that the defendant knew
of the existence of the scheme to make false
statements to mortgage lenders and that he
knowingly participated in it.” App.94a_95a. But
the closing for this “mortgage lending business”
occurred in 2002. Bouchard was prosecuted in
violation of the Ex Post Facto Clause by the
retroactive application of the 2009 amendment to
§1014.
2. The BNC Mortgage, Inc, closings.
These closings involved another mortgage
lender that was not a bank under §1014 pre­
amendment. The BNC evidence from bank fraud

13

convictions Counts 7 and 19 was used by the jury
to convict Bouchard of conspiracy under Count 1.
In fact, the trial court said exactly that in its post­
trial decision. App.96a-97a.
The Second Circuit reversed bank fraud
convictions Counts 7 and 19 because BNC
Mortgage, Inc. was not a “financial institution”.
United States v. Bouchard, 828 F.3d 116, 126 (2d
Cir. 2016). In rejecting the government’s
argument that BNC was a financial institution,
the Second Circuit relied primarily on this Court’s
decision in Loughrin v. United States, 573 U.S.
351 (2014). App.53a,55a-58a.
The Count 24 false statements conviction was
reversed because BNC was not a “bank”: §1014
pre-amendment requires the government to prove
that the defendant Bouchard “kn[ew] that it was a
bank ... to which he has made a false statement
...” and that he “intended to influence”. App.59a60a.; Sabatino, 485 F.2d at 544.
The Second Circuit noted that “Timing is
everything: the conduct for which Bouchard was
convicted occurred prior to 2009.” App.52a.
Prejudicial spillover of the inadmissible BNC
evidence led to the conspiracy conviction. United
States v. Hamilton, 334 F.3d 170, 183 (2d Cir.
2003); United States v. Rooney, 37 F.3d 847, 856
(2d Cir. 1994).

14
C.
Michael Bouchard has not procedurally
defaulted this Ex Post Facto Claim.
1. During the trial stage, no factual record was
developed for this claim.
Castillo failed to move to dismiss the
indictment on Ex Post Facto grounds and the
record is void of any relevant objections.
Therefore, this claim requires the development of
facts within Bouchard’s §2255 proceeding. The
procedural default doctrine does not apply to
claims such as this that require development of
facts outside the trial record. Bousley v. United
States, 523 U.S. 614, 621*622 (1998).
2. Even if this claim was procedurally defaulted and it was not - Michael Bouchard is actually
innocent.
In Murray v. Carrier, 477 U.S. 478, 495*496
(1986), this Court held that a federal habeas court
may entertain procedurally defaulted claims to
prevent a “fundamental miscarriage of justice,”
which it defined as instances where a defendant
has established there has “probably” been “[a]
conviction of one who is actually innocent.”
Bouchard always professed his innocence. (Dkt. 54
at 19*31; Dkt. 96 at 40; Dkt. 153 at 7, 47, 66; 2d
Cir. 19*1913 Dkt. 11 at 24*25 & Dkt. 29 at 17).
A claim of innocence is “a gateway through
which a habeas petitioner must pass to have his
otherwise barred constitutional claim considered
on the merits.” Schlup v. Delo, 513 U.S. 298, 315

15

(1995). To make a credible showing of actual
innocence in order overcome a procedural default,
a movant must present new reliable evidence that
was not presented at trial. Id. at 329.
The grand jury testimony and pre-trial
statements of Laurie Hinds also prove Bouchard’s
innocence, but those facts were undeveloped at
trial by defense counsel. Supra 5-6, 12.
Bouchard’s innocence was also declared by an
unexpected ally: Prosecutor Edward Broton. At
the 7-2-13 post-trial evidentiary hearing about the
recanted trial perjury of witness Kevin O’Connell
of PB Enterprises, AUSA Broton read excerpts of
O’Connell’s trial testimony. AUSA Broton then
argued that O’Connell’s trial testimony about
discussing a scheme and “double HUDs” with
Bouchard did not constitute any crime:
Broton: And the next question,
And did you [O’Connell] describe to him
[Bouchard] what you wanted to do?
Answer- Yes.
Question- And what did you ask him, what
did he tell you?
Answer- That we wanted to basically buy the
property, have two closings in one day where
we were buying it from somebody at a lower
price and then reselling it at a higher price.

16

Brotom Your Honor, I was unfamiliar with
the facts of this case until this recent issue
arose and I read this testimony and I
thought, well, what's wrong with that? You're
buying low and selling high, I don't see the
crime in that. And I don't think that you can
fairly characterize this conversation as an
explanation of the fraud scheme that was
perpetrated here. Rather, I think this is what
every real estate investor wants to do, buy
low, sell high.
And what did he [Bouchard] say to you
[O’Connell] ?
That wouldn't be a problem.
Broton- Your Honor, that testimony simply
not — doesn't implicate criminality to either
Bouchard, O'Connell, or anyone in -■ from my
take on it.
So after you had met with Michael Bouchard
— Question- After you had met with Michael
Bouchard\ discussed the need to have HUDs
at a high and a low price, you then had a
series of closings?
The answer. "Yes."

17
Broton- Again, your Honor, I don't see any
description or agreement of a crime in that
limited one question, one answer testimony”.
(Transcript of July 2, 2013 Evidentiary
Hearing — NDNYDkt. 87 at 28-30).
Prosecutor Broton’s position also applies to the
witness Disonell’s unimpeached false testimony
that he called Bouchard to ask Bouchard if he
could perform “double-HUD” closings for PB
Enterprises and Bouchard supposedly said yes.
Infra 25-27. Per Prosecutor Broton, a conversation
about having “double-HUDs” is really innocent
because it does not describe an agreement of a
crime.
What if the jury heard this official government
position that supposed discussions between
Bouchard and others regarding false HUDs were
not a “crime” and not a “conspiratorial
agreement”? Would there have been a reasonable
doubt? Yes.
Kevin O’Connell recanted his perjured
testimony three months after trial. Infra 37-38.
What if O’Connell recanted at trial and told the
jury that he lied about meeting with Michael
Bouchard because he was threatened by
Prosecutor Olmsted? Would there have been a
reasonable doubt? Yes.
What if the trial jury heard Laurie Hinds’
grand testimony and prior statements about

18

Bouchard’s innocence? Supra 5-6, 12. Would there
have been a reasonable doubt? Yes.
And, what if the trial jury received a proper
instruction from the court that Bouchard’s alleged
conduct involving numerous closings with nine (9)
mortgage lenders was actually innocent? Would
there have been a reasonable doubt? Yes.
The courts below ignored this Court’s decisions
in Bousley,. Murray and Schlup.
This Court has few opportunities to review
clear-cut Ex Post Facto violations. The
staggeringly unconstitutional rule adopted below
amply warrants this Court’s review.
II. THE EXTRAORDINARY NUMBER OF
DEFENSE COUNSEL’S ERRORS MERITS THIS
COURT’S REVIEW
The Sixth Amendment guaranteed that
Bouchard would be represented effectively while
facing a criminal prosecution. But he was not.
Instead, Bouchard was prejudiced by defense
counsel Gaspar Castillo’s deficient performance.

V

Castillo committed at least 27 errors
(incorporated herein - §2255 Motion, Dkt. 153 at
48-89; Dkt. 164 at 16-26). Each error amounts to
ineffective representation. And, Castillo’s overall
performance was so lacking that the cumulative
effect of his conduct amounted to a violation of
Bouchard’s constitutional right to meaningful
representation.

19
A. Defense Counsel’s Disciplinary History.
The proceedings below detail Castillo’s lengthy
disciplinary history. (Dkt. 153; 48-52; 2d. Cir.
Case 19-1913, Dkt. 11 at PACER p.9-ll).
The NYS discipline stretches back to 20092010, years before Bouchard’s trial.
In 2014 while representing Bouchard, Castillo
was temporarily suspended by the Second Circuit
and the Northern District of New York regarding
another case.
At a November 14, 2014 NYS disciplinary
hearing, Castillo testified that “depression”,
“feeling overwhelmed”, “being scared to death”
and other reasons led him to ignore inquiries from
the Second Circuit about his neglect of a 2012
appeal (that neglect is the same time period as
Bouchard’s trial). Castillo also testified: “I've done
a lot of things to neglect.”
In 2016 Castillo was suspended for 2 years by
the Second Circuit for neglecting another case,
and was then suspended for 3 years by NYS for
“grave misconduct” (neglect of clients' cases plus
the failure to act with reasonable diligence and
promptness in representing clients) - the same
misconduct displayed by Castillo at the same time
in Bouchard's case. Because of Castillo’s grave
misconduct, he was deemed unfit to practice law
and unfit to represent members of the public.
Bouchard is a member of the public that was
represented by the unfit Castillo.

20

Castillo was disbarred by NYS on January 18,
2018. (NY Slip Op 00376).
The next day, the Second Circuit’s Grievance
Panel issued an Order authorizing the disclosure
of Castillo’s federal disciplinary record because
the record is relevant to Bouchard’s ineffective
assistance of counsel claims. App.32a-39a.
This case is unique. Castillo’s lengthy history of
state and federal discipline is relevant to
Bouchard’s Sixth Amendment claim.
B. Defense Counsel’s Errors.
Here, 13 of the 27 prejudicial errors are
summarized^
Error 1 of 27 (NDNYDkt. 153; 52-53):
Shortly after the grand jury testimony
concluded in August 2011, Castillo was told by
Prosecutor Capezza that he had doubts about the
case and that he might not proceed with an
indictment. What did Castillo do? Absolutely
Nothing. AUSA Capezza heard the live testimony
of all witnesses, then conveyed to Castillo his
misgivings about the proceeding and his
inclination to close the case. Castillo missed a
golden opportunity to close the case with no
indictment. Consequently, the case lingered on,
AUSA Capezza resigned from U.S. Attorney's
Office, and a different prosecutor obtained the
indictment on 7-25*12.

21

Error 2 of 27 (Id.; 53):
At arraignment, the government convinced the
court to order Bouchard to avoid contact with 4
individuals that later testified for the government
at trial. Castillo failed to object to the
government’s interference with Bouchard’s
constitutional right to access witnesses in his
defense.
Error 3 of 27 (Id- 53-55; Dkt. 164; 17-23):
Castillo never made a discovery motion, but
relied the government’s false promise that there
would be “open file discovery”. The government
violated Brady/Giglio/Jencks by suppressing all
handwritten interview notes, various typewritten
interviews and all tape recordings.
Error 5 of 27 (Dkt. 153; 55):
Castillo filed no Trial Memorandum and did not
object to false statements in the government’s
Trial Memorandum. For example, the government
falsely stated that Bouchard was interviewed and
acknowledged that he created or caused to be
created multiple and inconsistent HUD-l’s for the
same transactions. (Dkt. 17 at PACER 10). This
falsehood appeared later in the PSI report. But,
the truth is found in the government’s own
Memorandum of Interview: “Bouchard is the bank
attorney and would not have participated in
signing a double-HUD closing”; “Bouchard did not
prepare any of the HUDs”; and “Bouchard never
spoke to anyone about holding double HUD
closings”.

22

Error 6 of 27 (IdJ 55-56):
The district court used the government’s legally
erroneous jury instructions to instruct the jury.
Castillo made no objection to these violations of
the Fifth Amendment’s Due Process Clause.
Day 1 of the trial: the court told the jury that
Count 24 with non-bank BNC charged Bouchard
with submitting “false documentation to a bank.”
(Dkt. 114; 4).
Aiding and Abetting: Instructions at Dkt. 14! 5152 and Dkt. 117; 31. Aiding and Abetting §2(b)
was charged in conspiracy Count 1, while §2(a)
and §2(b) were charged in bank fraud Counts 223. The different elements for §2(a) and §2(b) were
blended together into just one erroneous and
intertwined instruction. The Second Circuit’s
direct appeal decision sheds new light on the trial:
with bank fraud Counts 7 & 19 reversed, the jury
should have never been allowed to utilize the
erroneous and inapplicable 18 U.S.C. §2(a) for
Count 1. As for §2(b), those instructions alone
were wrong. Under a §2(b) “causing” theory, the
instructions omitted all 4 necessary elements.
United States v. Scotti, 47 F.3d 1237, 1246 (2d
Cir. 1995). The Due Process Clause was violated.
Francis v. Franklin, 471 U.S. 307, 313 (1985).
“[T]he complete omission of an element of an
offense violates due process”. United States v.
Gallerani, 68 F.3d 611, 617 (2d Cir. 1995). The
charge also omitted the instruction that the
underlying offense must be committed by someone

23

(not the defendant) beyond a reasonable doubt.
United States v. Osorio Estrada, 751 F.2d 128,
132 (2d Cir. 1984). The omitted reasonable doubt
standard is indispensable, for it “impresses on the
trier of fact the necessity of reaching a subjective
state of certitude of the facts in issue”. In Re
Winshop, 397 U.S. 358, 364 (1970).
Conspiracy- Instructions at Dkt. 14; 37-40! Dkt.
117; 22-26. The instructions omitted all 3
essential elements of conspiracy, thereby violating
the Due Process Clause. United States v.
Gallerani, 68 F. 3d 611, 617-618 (2d Cir. 1995);
Francis v. Franklin, 471 U.S. 307, 313 (1985).
Twice the court retroactively applied the 2009
amendments by instructing the jury that the
specific object of the conspiracy was the
submission of false statements to “mortgage
lending institutions”. (Dkt. 117; 21-22). As the
Second Circuit ruled on appeal: “[I]n 2009
Congress amended both Section 20 and Section
1014 to cover mortgage lending institutions
specifically, (emphasis added). App.58a.
Conscious Avoidance: Instructions at Dkt. 117;
16-17. The instruction omitted crucial elements.
(Dkt. 153; 42-46). The instruction was erroneously
applied to the alternate Count 1 charge of “aiding
and abetting a conspiracy”. It is impossible to
consciously avoid “aiding and abetting” under 18
U.S.C. §2(b). Id- at 46.

24

Error 9 of 27 (Id. at 56-66):
Castillo failed to move to dismiss the
indictment on Ex Post Facto grounds. He
misunderstood the law. Before trial, Bouchard
informed Castillo about the 2009 amendments to
The U.S. Code. But Castillo did nothing. Bouchard
was indicted, prosecuted and jailed for alleged
conduct involving nine (9) different mortgage
lenders that was legal under the pre-amendment
statutes. Supra 8-13, 23.
Castillo’s performance was unreasonable. “An
attorney's ignorance of a point of law that is
fundamental to his case combined with his failure
to perform basic research on that point is a
quintessential
example
of
unreasonable
performance under Strickland”. Hinton v.
Alabama, 134 S. Ct. 1081, 1089 (2014).
Bouchard showed “that there is a reasonable
probability that, but for counsel's unprofessional
errors, the result of the proceeding would have
been different.” Strickland at 694; Hinton at 1089.
The government’s mountain of inadmissible Ex
Post Facto evidence caused the indictment and
convictions.
Error 10 of 27 (Id.; 66-67):
Castillo signed a “Stipulation” that allowed the
government to introduce exhibits for 8 “Team
Title” files - 7 involving mortgage lenders. AUSA
Olmsted told the jury it could convict Bouchard of
conspiracy based on any 1 of these 8 closings.
(Dkt. 116; 30). Castillo failed to make 2 objections:

25

l) the exhibits for 7 closings and Olmsted’s
summations violated the Ex Post Facto clause; 2)
all 8 exhibits were inadmissible — Bouchard had
no co-conspirator with which to submit false HUD
statements oh these files because paralegals
Hinds and Edgerton only pled to a conspiracy
regarding the separate “PB Enterprises scheme”.
Error 11 of 27 (Id.; 67-68):
At trial the government slid in FRE 404(b)
evidence from 19 closings not charged in Counts
2-24: 14 closings with Argent Company, LLC and
5 closings with BNC Mortgage, Inc. (both
mortgage lenders). “[T]he government may offer
proof of acts not included in the indictment, as
long as they are within the scope of the
conspiracy”. United States v. Thai, 29 F.3d 785,
812 (2d Cir. 1994). The alleged acts here fell
outside the scope of a conspiracy to submit false
statements to banks pre-amendment. Castillo
made no objection.
Error 15 of 27 dd.5 70-78):
Castillo failed to impeach government witness
Disonell. Disonell testified that he called
Bouchard to ask if Bouchard would do
“double-HUD” closings for PB Enterprises, and,
Bouchard said yes. (Dkt. 49; 32-33). Disonell lied.
Castillo failed to use Disonell’s prior inconsistent
statements during cross-examination. Prejudice
ensued: l) Bouchard was convicted; 2) the trial
court used Disonell’s testimony to affirm the

26

conspiracy conviction. App.97a.; and 3) the Second
Circuit did the same. App.64a.
Disonell’s testimony is contradicted by his prior
inconsistent statements made during a 2009
interview with IRS agents. (2d Cir. Case 19-1913;
Dkt. 11, EX. N).
Castillo missed the glaring inconsistencies and
never cross-examined Disonell.
In Disonell’s 2012 trial story. Nickole RilewSutliff
of PB Enterprises calls Disonell because she
doesn't know how to do double HUD closings for
PB Enterprises and she wants to know if Disonell
can do the closings. Then. Disonell calls Bouchard
to see if he would do double HUD closings for PB
Enterprises, and Bouchard says yes.
In Disoneirs prior 2009 IRS interview. Disonell
said that Nickole Riley [Sutliff] and Matt [Kupic]
both tell Disonell about double HUD closings that
Bouchard is doing. Nickole Rilev~Sutliff calls
Bouchard and asks if he could do double HUD
closings for Disonell because Disonell is interested
in doing double HUD closings. Then. Bouchard
calls Disonell.
Disonell’s unimpeached false trial testimony
proved the government’s fake case that Bouchard
joined the PB Enterprises’ “double-HUD” scheme.
Since Castillo entirely failed to subject the
prosecution’s case to meaningful adversarial
testing, “then there has been a denial of Sixth
Amendment rights that makes the adversarial
process itself presumptively unreliable.” United

27

States v. Cronic, 466 U.S. 648, 659 (1984). “No
specific showing of prejudice is required ...
because the petitioner had been denied the right
of effective cross-examination which would be
constitutional error of the first magnitude and no
amount of showing of want of prejudice would
cure it”. Id.
Error 17 of 27 (Id.; 79-80):
Castillo never cross-examined Disonell with
exculpatory information from a letter Disonell
sent to his sentencing judge. (Dkt. 95 EX. 33).

Errors 20 and 21 of 27 (Id.; 81-84):
Castillo
failed to cross-examine Kevin
O’Connell and Michael Crowley of PB Enterprises.
Both testified at the grand jury that they had no
conversations with Bouchard. (2d Cir. Case 191913, Dkt. 11, EX. P-Q). At trial, they both told
the same new false story that they met with
Bouchard together to discuss their scheme of
“buying properties low” and “selling properties
high”, that Bouchard said it “wouldn’t be a
problem”, and that Bouchard agreed to do their
closings.
O’Connell was only impeached on separate trial
testimony that he discussed “double-HUDs” with
Bouchard.

28

Castillo neglected to cross-examine O’Connell
and Crowley with their grand jury testimony that
they had no conversations with Bouchard. In
affirming the Count 1 conspiracy conviction, the
Second Circuit used O’Connell and Crowley’s
unimpeached false trial testimony about their
conversations and “agreement” with Bouchard.
App.46a-47a. But there was no such agreement the two told the grand jury that they never spoke
with Bouchard. Again, Castillo failed to crossexamine witnesses.
Error 22 of 27 dd.; 84):
Castillo made no objections to false statements
made by Prosecutor Olmsted in Summations:
•

For bank fraud Count 19 with BNC,
Olmsted referenced the HUD as a false
document, and, the buyer and Bouchard’s
agreement to a conspiracy. (Dkt. 116; 57).

• Three times in the same sentence Olmsted
desbribed BNC a bank. (Id-’ 156-157).
•

Olmsted described the mortgage lender
Argent Mortgage Company LLC as “Argent
Bank”. (Id.; 155).

•

Olmsted described the lender Fremont
Investment & Loan as “Fremont Bank”.
(Id.; 20).

29

C. The Decisions Below.
In denying Bouchard’s ineffective assistance of
counsel claim the district court failed to discern
the gravity of Castillo’s errors, and simply copied
the government’s skeletal response to the §2255
motion. App.22a. The court then ruled: “Crucially,
Petitioner’s claims fail to show that: (i) Mr.
Castillo’s performance was below an objectively
reasonable standard; and (2) that, but for the
deficiency, the ultimate outcome of the proceeding
would have been different. See Strickland, 466
U.S. at 687.” App.22a.
The district court’s analysis has no basis in
established law. The Second Circuit approved that
analysis, and its decision to deny Bouchard’s COA
Motion decided this important federal question in
a way that conflicts with relevant decisions of this
Court. App.la'4a. The district court created new
law, approved by the Second Circuit, which stands
in stark contrast to decisions of this Court.
First the district court reached the strange
conclusion that since Bouchard was acquitted of
20 of the 24 counts at trial, this equates to
effective performance by Castillo regarding the 4
other counts on which Bouchard was convicted.
App.22a. If that were the law - and it is not - it
would forever preclude all habeas petitioners with
mixed jury verdicts from raising an ineffective
assistance of counsel claim. Such harsh claim
preclusion is not envisioned by the Sixth
Amendment, Second\ the decisions below
overruled this Court’s evidentiary standard for

30

the prejudice prong of an ineffective of counsel
claim as established in Strickland v. Washington,
466 U.S. 668, 694 (1984). The courts below created
a new and extremely heightened evidentiary
standard for a habeas petitioner to prove
prejudice resulting from defense counsel’s
deficient performance.

D. The Law.
The Sixth Amendment guarantees criminal
defendants “the right ... to have the Assistance of
counsel for [their] defence. This Court has long
recognized that the right to counsel includes “the
right to the effective assistance of counsel.”
Strickland v. Washington, 466 U.S. 668, 686
(1984).
A petitioner seeking to attack a conviction
based on ineffective assistance of counsel must
show: (l) that counsel's performance fell below an
objective standard of reasonableness, and (2) that
there is a reasonable probability that, but for
counsel's unprofessional errors, the result of the
proceeding would have been different. Strickland,
466 U.S. 668, 688, 694.
In ruling on the requisite prejudice at the
second step - the prejudice prong - the district
court ran far afield from established law and
erroneously decided that Bouchard was required
to prove “that, but for the deficiency, the ultimate
outcome of the proceeding would have been
different’. App.22a. There is no such requirement
under the law. Rather, a much lower evidentiary

31
threshold applies for the prejudice prong. As this
Court ruled in Strickland
“An ineffective assistance claim asserts the
absence of one of the crucial assurances that
the result of the proceeding is reliable, so
finality concerns are somewhat weaker and
the appropriate standard of prejudice should
be somewhat lower. The result of a
proceeding can be rendered unreliable, and
hence the proceeding itself unfair, even if the
errors of counsel cannot be shown by a
preponderance of the evidence to have
determined the outcome.
Accordingly, the appropriate test for
prejudice finds its roots in the test for
materiality of exculpatory information not
disclosed
to
the
defense
by
the
prosecution, United States v. Agurs, 427 U.S.
at 427 U. S. 104, 427 U. S. 112-113, and in
the test for materiality of testimony made
unavailable to the defense by Government
deportation of a witness, United States v.
Valenzuela-Bernal, supra, at 458 U. S. 872874. The defendant must show that there is
a reasonable probability that, but for
counsel's unprofessional errors, the result of
the proceeding would have been different A
reasonable probability is a probability
sufficient to undermine confidence in the
outcome.”
Strickland at 694. (emphasis added).

32

It is uncontroverted that Castillo’s performance
fell below an objective standard of reasonableness,
and that there is a reasonable probability that,
but for the unprofessional errors, the result of the
proceeding would have been different. Confidence
in the outcome has been undermined.
E. The Fremont Investment & Loan Closing.
The court’s dismissal of Bouchard’s ineffective
assistance of counsel claim rests on just 1 closing
for an alleged “overt act” involving Fremont
Investment & Loan. App.23a-24a.8
The indictment described Fremont and nine (9)
non-bank lenders as “mortgage lenders”. In fact,
IRS Agent Fattorusso told the grand jury that
Fremont was a “mortgage company”. (2d Cir. Case
19-1913, Dkt.ll, EX. U). The indictment failed to
allege the crucial element that Fremont was a
“bank” and that Bouchard knew that Fremont
was a “bank” to which the statement was
submitted. Sabatino, 485 F.2d at 544. Nor was
this proven at trial. The government failed to
introduce evidence at trial that linked the crucial
word “bank” to Fremont Investment & Loan.9

8 Bouchard was acquitted at trial of substantive Count 17 for
this same transaction with Fremont that charged bank
fraud -or- in the alternative, aiding and abetting bank fraud.
9 Prosecutor Olmsted knew that this essential element was
missing. So, in summations he falsely described “Fremont
Investment & Loan” as “Fremont Bank”. (Dkt 116 at 20).

33

Irma Valdez of Fremont could not describe
Fremont as a bank for the juryQ[;] And Fremont, the company that you work for,
was a sub-prime lender, correct?
AD] That is correct.
Q[;] And by that, you will agree, means that your
particular bank, should I call your company a
bank or did you call yourself something else?
AD] We were Fremont Investment & Loan.
(Dkt. 48 at PACER page 38).
To support the dismissal, the district court cites
“Petitioner’s testimony acknowledging that
Fremont was an FDIC-insured institution”.
App.23a. This snippet from cross-examination
testimony does not reflect the full record — but it
does prove ineffective assistance of counsel.
First. Bouchard’s testimony on 11-26-12
acknowledged that Fremont was FDIC insured
because 12 days earlier Valdez of Fremont
testified that Fremont was FDIC insured (Dkt.
48! 9-10), and, Valdez identified Fremont’s FDIC
certificate in her testimony. (Gov. EX. 01. l).
Second. Bouchard testified on re-direct
examination that before the trial he had an
opportunity to look into the particular subject of
the FDIC to investigate and determine the FDIC
insured status of Fremont. (Dkt. 54 at 167). But,
trial counsel Castillo failed to develop this

34

important defense beyond that short re-direct.
The government listed Fremont in a proposed
indictment. So, Bouchard researched Fremont on
June 12, 2012, located Fremont on the FDIC’s
web-site and printed one page of search results.
App.l56a. Castillo had this printed page of
research, but failed to introduce it into evidence in
Bouchard’s defense. And. Castillo failed to argue
the fact that Bouchard did not know that Fremont
was a bank at the time of this closing.
Third, the narrow language of the FDIC
certificate covered only Fremont’s home office in
Brea, California and its Domestic U.S. branches.
Bouchard’s staff dealt only with Fremont’s
Elmsford, NY mortgage processing location, which
did not take deposits and did not issue monetary
instruments, and was therefore not covered as a
“Domestic U.S. Branch” under the FDIC
certificate. (Dkt. ,153! 61-63). Bouchard’s office
sent the HUD statement to Fremont’s Elmsford,
NY office
not Fremont in California. The
government tried to cure this defect by
introducing at trial Exhibit 17.4B which contained
a 1 page document entitled “Tax Service Order”
with Fremont’s with Brea, California address.
But, Bouchard’s office never received this internal
Fremont form. As Valdez of Fremont testified:
“The next page is an internal form, it’s a tax
service order...” (Dkt. 48 at 37). The FDIC
certificate was irrelevant to Fremont’s Elmsford,
NY mortgage location. Castillo knew these facts.

35

but made no motion to dismiss and made no
arguments to the jury.
Fourth, the indictment alleged that false HUDs
were submitted to mortgage lenders to influence
the lenders in connection with the mortgage loans
that were being funded at the closings. (Dkt. 11
If46). The “overt act” alleged that a HUD
statement was submitted to Fremont which
“misrepresented the manner in which the
disbursements of the loan proceeds would be
made”. (Id.; ^47b). These provisions allege a
specific cause and effect: the submission of the
HUD to Fremont caused Fremont to wire the
mortgage loan funds to Bouchard’s office on the
day of the closing, March 30, 2005. However,
another internal Fremont form within Gov. EX
17.4B disproves this overt act: a 1 page document
entitled “Final HUD-1 Prepaid Finance Charge
Worksheet” shows that the HUD was not
reviewed and accepted by Fremont until April 30,
2005 - which is 16 days after the loan funded.
(Dkt. 95-1, EX. 48). Thus, the HUD had no
influence on Fremont with respect to its funding
of the loan at closing as alleged in the indictment.
Castillo knew these facts, but made no motion to
dismiss and made no arguments to the jury.
The government has no evidence to uphold the
unjust conspiracy conviction.
In sum, the Second Circuit’s panel decision
validated the trail-blazing creation of erroneous
new constitutional law by the district court. By

36
endorsing that abhorrent creation, the Second
Circuit departed from this Court’s decisions. The
courts below do not have the authority to overrule
this Court. Such grave errors merit this Court’s
review.
F. The Cumulative Effect of Defense Counsel’s 27
Errors.
The Sixth Amendment right to counsel exists to
protect the right to a fair trial. Strickland, 466
U.S. at 684. Strickland instructs that counsel’s
errors must be considered together, requiring
courts to assess “counsel’s errord’ (plural) and
analyze “the totality of the evidence before the
judge or jury.” Id. at 695 (emphasis added).
The cumulative effect of Castillo’s 27 errors
deprived Bouchard of effective counsel.
Seven Circuits - the First, Second, Third, Fifth,
Seventh, Tenth, and Eleventh Circuits — follow
Strickland in
assessing
counsel’s
errors
cumulatively. Dugas v. Coplan, 428 F.3d 317, 335
(1st Cir. 2005); Lindstadt v. Keane, 239 F.3d 191,
199 (2d Cir. 2001); McNeil v. Cuyler, 782 F.2d
443, 451 (3d Cir. 1986); Moore v. Johnson, 194
F.3d 586, 619 (5th Cir. 1999), superseded by
statute on unrelated grounds; Kubat v. Thieret,
867 F.2d 351, 370 (7th Cir. 1989); Sanders v.
Ryder, 342 F.3d 991, 1001 (9th Cir. 2003);
Gonzales v. Tafoya, 515 F.3d 1097, 1126 (10th Cir.
2008); Evans v. Sec’y, Fla. Dep’t of Corr., 699 F.3d
1249, 1269 (11th Cir. 2012).

37

The Fourth, Sixth, and Eighth Circuits, by
contrast, reject cumulative review of ineffectiveassistance claims. Fisher v. Angelone, 163 F.3d
835 (4th Cir. 1998), Campbell v. United States,
364 F.3d 727 (6th Cir. 2004), Wainwright v.
Lockhart, 80 F.3d 1226, 1233 (8th Cir. 1996).
In resolving the split, this Court should confirm
that the majority view is correct. Strickland’s
focus on counsel’s errors, in the aggregate, is
consistent with this Court’s recognition that the
cumulative effect of multiple errors can
undermine confidence in the judicial process and
the resulting verdict. Bouchard’s petition presents
an ideal vehicle because the courts below refused
to consider the cumulative effect of counsel’s
errors, and cumulative review would have made a
decisive difference in this case.
III. THE DENIAL OF THE §2255 EVIDENTIARY
HEARING MERITS THIS COURT’S REVIEW.
A. The Recanted Trial Testimony.
After trial,
government witness Kevin
O’Connell recanted his perjured trial testimony.
The government’s post-trial “Memorandum of
Interview” includes the following pertinent
entries“O’Connell then stated that he lied in the
Michael Bouchard trial and that he never
met Michael Bouchard”.

38

“O’Connell said that he met with Assistant
United States Attorney, Michael Olmsted,
and Special Agent Thomas Fattorusso and
told them several times he never met
Michael Bouchard. O’Connell stated that
Michael Olmsted told him “If you do not tell
us you met with Michael Bouchard we can’t
help you.”
“O’Connell explained that he felt Michael
Olmsted threatened him and as a result
O’Connell lied while testifying that he met
Michael Bouchard when in fact he did not.”
“O’Connell stated that it was like the movies,
he had to swear to tell the truth but then lied
that he had a meeting with Michael
Bouchard when he had actually never met
Michael Bouchard. O’Connell said that he
lied because he felt that Michael Olmsted
threatened him that if he did not lie he
would not get a reduced sentence. Also, that
in the past he had provided information on
others to Special Agent Fattorusso but
Fattorusso only seemed to be interested in
the Bouchard”.
(2d Cir. Case 19-1913; Dkt. 11, EX. W; and
2d Cir. Case 19-1037, Dkt. 1-2 at 35-36).
Prosecutor Michael Olmsted testified at the
7-2-13 evidentiary hearing that he did not
threaten O’Connell and that O’Connell was
“remarkably imprecise” in his grand jury

39

testimony that he had no conversations with
Bouchard.10 This was AUSA Olmsted’s “excuse” to
justify asking O’Connell questions at trial about a
fictional meeting with Bouchard.
To bolster his fabricated story, AUSA Olmsted
then offered stammering and scattered testimony
about a tape recording of O’Connelb
“I remember another meeting we had where
we played him a tape where he had
previously talked about manipulating the
HUDs because we thought that might
refresh his recollection that he had had -- on
his interaction with Bouchard. It did not
refresh his recollection but that's what - we
played him a tape. I did not, I wasn't sitting
there while he listened to the tape, though,
so I don't remember ever talking to him then
about his obligation to tell the truth because
I wasn't sitting through most of that
meeting. But on the other ones, I do
remember meeting with him, I remember
talking to him about -- as I've testified
already.” (NDNY Dkt. 87 at 56! 2d Cir. Case
No. 19-1037; EX.“H”).

10 O’Connell’s grand jury testimony was clear and precise:
Q[;] “Did you yourself have any conversations with Michael
Bouchard about the use of gift money or double HUD
closings or any other techniques used to close properties?”
A[:] “No.” (Dkt. 153 at 82; 2d Cir. 19-1913, Dkt. 11, EX. P).

40

B. The Hindered §2255 Discovery.
In its Response to Bouchard’s §2255 Motion, the
government argued that the burden is on
Bouchard to prove the suppression of Brady,
Jencks and Giglio material. (Dkt. 161 at 27, n. 18).
Bouchard then made a discovery motion. (Dkt.
166). The government then admitted that the tape
recording is Brady, Giglio & Jencks material, but
falsely claimed that it was turned over in pre-trial
discovery. (Dkt. 174; 10). Since Bouchard never
received the tape, he requested an evidentiary
hearing on the suppressed tape. (Dkt. 177). The
government did not oppose the motion. The court
ignored the motion for almost 3 months. Bouchard
filed a Petition for a Writ of Mandamus with the
Second Circuit seeking an order compelling the
district court to schedule the evidentiary hearing.
(2d Cir. Case 19-1037 Dkt. 1-2 & 5). The district
court quickly intervened and denied all of
Bouchard’s motions. App.7a-30a.
C. The Mandamus Petition.
The Petition revealed that a tape recording
never existed, and an evidentiary hearing would
solidify that fact. O’Connell’s grand jury testimony
showed that he was unaware of the “doubleHUDs” until after he was under investigation —
thus, a tape of O’Connell discussing the
manipulation of HUDs never existed:

41

Q GRAND JURORS When did you become
aware of the practices of double HUD?
A THE WITNESS [O’Connell]: Not until
after the - after the IRS agent visited my
office and kind of briefed me on, you know,
and I got an attorney and got involved in all
of this on the specifics of how it was done.
(2d. Cir. Case 19-1037; Dkt. 1-2 EX. “N”).
AUSA Olmsted lied at the hearing about a tape
recording of O’Connell to divert attention away
from the fact that he threatened O’Connell into
lying at Bouchard’s trial. A new evidentiary
hearing would have proved that a tape recording
did not exist. Under the doctrine of falsus in uno,
AUSA Olmsted’s entire testimony can be rejected
as false, and, the government has nothing to rebut
the truth that it knowingly introduced false
testimony at trial from its witness O’Connell.
A reversal would then be warranted. “Indeed, if
it is established that the government knowingly
permitted the introduction of false testimony
reversal is virtually automatic”. United States v.
WaJJach, 935 F.2d 445, 456 (2d Cir. 1991)
(internal quotation marks omitted); United States
v. Stofsky, 527 F.2d 237, 243 (2d Cir. 1975) (citing
Napue v. Illinois, 360 U.S. 264, 269 (1959).
Bouchard was entitled to an evidentiary
hearing to prove one of two mutually exclusive
claims: i) the government suppressed a tape
recording in violation of Brady/Giglio/Jencksi OR2) Prosecutor Olmsted lied and a tape never

42

existed, which then brings forward a Due Process
claim for a reversal.
The lower courts’ decisions undermine the
integrity of the §2255 discovery rules. Paragraph
2 of §2255 states “Unless the motion and the files
and records of the case conclusively show that the
prisoner is entitled to no relief, the court shall
cause notice thereof to be served upon the United
States attorney, grant a prompt hearing thereon,
determine the issues and make findings of fact
and conclusions of law with respect thereto.” This
language incorporates the standards governing
evidentiary hearings in habeas corpus cases
articulated in this Court’s decision in Townsend v.
Sain, 372 U.S. 293 (1963). Under Townsend, a
hearing is required where the facts alleged, if
true, would entitle the movant to relief, and the
facts have not yet been reliably found after a full
and fair hearing. Id., 373 U.S. at 312-313; United
States v. Magini, 973 F.2d 261, 264 (4th Cir.
1992).
Actual proof of the facts alleged in the motion
are not required in order to demonstrate
entitlement to a hearing. “The law is clear that, in
order to be entitled to an evidentiary hearing, a
petitioner need only allege - not prove reasonably specific, norrconclusory facts that, if
true, would entitle him to relief’. Aron v. United
States, 291 F.3d 708, 715 n.6 (l 1th Cir. 2002)
(emphasis in original).

43

The district court abdicated its authority to
decide the necessity of an evidentiary hearing by
ignoring the motion for months. The issue was
ripe for consideration by the Second Circuit under
a pending Mandamus Petition. The district court’s
unusually swift invasion of the Second Circuit’s
authority to render a decision regarding an
unresolved constitutional issue presents an
extraordinarily unique situation for this Court’s
review.
Aside from the Mandamus Petition, the district
court abused its discretion in denying the
evidentiary hearing. The government agrees with
Bouchard that the tape of O’Connell is
Brady/Giglio/Jencks material. But the tape was
suppressed in pre-trial discovery. Bouchard’s
allegations, if proved, entitle him to relief. Thus,
the district court abused its discretion in denying
the evidentiary hearing. United States v. Baynes,
622 F.2d 66, 68-70 (3d Cir. 1980); United States v.
Barboa, 111 F.2d 1420, 1422-1423 (10th Cir. 1985)
The panel below blessed the perfunctory district
court decision that this Court’s decisions and
other Circuits reject. That provides an ideal
vehicle for this Court to confirm a habeas
petitioner’s right to an evidentiary hearing on
Brady/Giglio/Jencks claims, and to evaluate the
authority of a Circuit Court to decide the necessity
of an evidentiary hearing on a constitutional issue
abandoned by a district court.

44

CONCLUSION
The Petition should be granted.

Respectfully Submitted,
Michael G. Bouchard
ProSe Petitioner
595 New Loudon Road, #201
Latham, New York 12110
(518) 542-5450
bouchard@nycap.rr.com
March 2020

